U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Cimznhca, LLC v. United States of America
S.Ct. No. 20-1138

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 10,
2021, and placed on the docket on February 19, 2021. The government’s response is due on
March 22, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 21, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1138
CIMZNHCA, LLC
USA

LESLIE LEEANN PESCIA
BEASLEY, ALLEN, CROW, METHVIN, PORTIS
& MILES, P.C.
PO BOX 4160
MONTGOMERY, AL 36103
334-269-2343
LESLIE.PESCIA@BEASLEYALLEN.COM

